' >.• <

No.

IN THE
SUPREME COURT OF THE UNITED STATES

BOBBY EARL KEYS,

PETITIONER

VS.
UNITED STATES OF AMERICA,

RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

APPENDIX

Reg. No. 03344-043
FEDERAL CORRECTIONAL INSTITUTION
P.O.BOX 1031
COLEMAN, FLORIDA 33521-1031

*

APPENDIX

1

l

®nttcb States Court of Appeals;
for tfje jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
April 30, 2021
No. 20-61192
Summary Calendar

United States

of

Lyle W. Cayce
Clerk

America
Plaintiff—Appellee,
versus

Bobby Earl Keys,
Defendant—Appellant.

Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. l:ll-CR-79-l

Before Davis, Stewart, and Dennis, Circuit Judges.
Per Curiam:*
Bobby Earl Keys, federal prisoner # 03344-043, pleaded guilty to mail
fraud in violation of 18 U.S.C. § 1341. The district court sentenced him to
150 months of imprisonment followed by three years of supervised release.
Keys now appeals the district court’s refusal to reconsider its denial of his

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

No. 20-61192

motion for compassionate release under 18 U.S.C. § 3582(c)(l)(A)(i), as
amended by the First Step Act of 2018 (FSA), Pub. L. No. 115-391, § 404,
132 Stat. 5194. Whether this appeal is considered an appeal from the denial
of a § 3582(c)(l)(A)(i) motion or an appeal from the denial of a motion for
reconsideration, review is for abuse of discretion. United States v. Chambliss,
948 F.3d 691, 693 (5th Cir. 2020); United States v. Rabhan, 540 F.3d 344,
346-47 (5th Cir. 2008).
According to Keys, the district court misunderstood the breadth of its
authority to grant relief under the compassionate release statute as amended
by the FSA. Keys complains that the district court treated U.S.S.G. § 1B1.13,
p.s., as binding and limited its consideration of extraordinary and compelling
reasons to those listed in Application Note 1 of its commentary even though
the policy statement does not, by its own terms, apply in cases where a
motion for compassionate release is brought by a prisoner and not the Bureau
of Prisons. He further argues that the district court erred in balancing the
18 U.S.C. § 3553(a) factors, especially with respect to his criminal history.
Keys has also filed a motion seeking a limited remand to the district
court for additional consideration of his request for compassionate release.
Additionally, he has moved for release pending the disposition of his appeal
under 18 U.S.C. § 3143(b)(1).
Here, the district court cited to and quoted § 1B1.13, p.s., and its
commentary, but it is not clear from the court’s order that it treated § 1B1.13,
p.s., as the dispositive boundary of what may be judicially determined to be
extraordinary and compelling reasons for a sentence reduction. We need not
resolve whether the district court’s consideration of § 1B1.13, p.s.,
constituted legal error because, aside from its determination that Keys had
failed to establish extraordinary and compelling reasons for a sentence

2

No. 20-61192

reduction under § 3582(c)(l)(A)(i), the court also concluded that Keys had
not shown that the § 3553(a) factors weighed in favor of early release.
Keys challenges the district court’s consideration of the § 3553(a)
factors, especially its reliance on his prior armed bank robbery conviction,
which is nearly 30 years old. He claims that despite his criminal history, his
post-sentencing conduct shows that he is no longer a danger to the public.
Despite Keys’s claim to the contrary, the district court gave due
consideration to his post-sentencing rehabilitative efforts and his lack of any
significant disciplinary infractions while incarcerated. Though Keys claims
that the district court gave too much weight to his criminal history, his
argument amounts to a mere disagreement with the court’s balancing of the
§ 3553(a) factors, which “is not a sufficient ground for reversal. ” Chambliss,
948 F.3d at 694 (citation omitted).
The district court’s order is AFFIRMED. Keys’s motion for limited
remand is DENIED, and his motion for release pending the disposition of
his appeal is DENIED as moot.

3

APPENDIX
2

!

n

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
SOUTHERN DIVISION
UNITED STATES OF AMERICA
v.

BOBBY EARL KEYS

§
§
§
§
§
§
§

Criminal No. l:llcr79-HSO-JCG-l

ORDER DENYING DEFENDANT BOBBY EARL KEYS’S MOTION UlOl FOR
RECONSIDERATION
BEFORE THE COURT is Defendant Bobby Earl Keys’s Motion [110] for
Reconsideration. For the reasons that follow, the Court finds that this Motion [110]
should be denied with prejudice.
I. BACKGROUND
A.

Procedural history
Pursuant to a Plea Agreement with the Government, on November 4, 2011,

Defendant Bobby Earl Keys (“Defendant” or “Keys”) pleaded guilty to one count of
mail fraud in violation of 18 U.S.C. § 1341. Indictment [1] at 2-3; Plea Agreement
[23] at 1. On June 5, 2012, the Court sentenced Keys to a 150-month term of
imprisonment, followed by three years of supervised release. Min. Entry, June 5,
2012. Keys is presently incarcerated at Coleman Low Federal Correctional
Institution (“Coleman FCI”) in Sumterville, Florida, and his anticipated release
date is March 10, 2024. See Mot. [110]; Reply [104] at 15; Def. Ex. 4, Inmate Data
[104-4] at 1.

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 2 of 13

Keys filed his initial Motion [95] for Compassionate Release on May 12, 2020,
asking that the Court grant him early release or permit him to serve the remainder
of his sentence in home confinement. Mot. [95] at 4; Reply [104] at 19. The
Government opposed Keys’s Motion on grounds that he had not yet exhausted
administrative remedies, or alternatively that it should be denied on the merits.
See Resp. [99] at 7, 11 (citing 18 U.S.C. § 3582(c)(1)(A)). On June 25, 2020, the
Court entered an Order [108] denying Keys’s Motion [95] without prejudice because
he had not complied with the mandatory exhaustion requirements of 18 U.S.C.
§ 3582(c)(1)(A). Order [108].
B.

Kevs’s Motion fllQ] for Reconsideration
Keys filed a pro se Motion [110] for Reconsideration on October 6, 2020,

asking the Court to grant him compassionate release because he has now
exhausted his administrative remedies under 18 U.S.C. § 3582(c)(1)(A). Mot. [110]
at 1. Keys avers that he has exhausted his administrative remedies because he
submitted an appeal of his request for compassionate release to the General
Counsel on or before August 19, 2020, Ex. I [110-1] at 22, and he has not received a
response to that request as of the date of the filing of his present Motion, Mot. [110]
at 4-5; see Ex. G [110-1] at 17; Ex. H [110-1] at 19. On the merits, Keys argues that
his medical conditions, particularly diabetes and hypertension, constitute
“extraordinary and compelling reasons” warranting compassionate release due to
the COVID-19 pandemic, Mot. [110] at 7-8, and that he does not pose a threat to
the public under the applicable 18 U.S.C. § 3553(a) factors, id. at 10-12.

2

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 3 of 13

On November 23, 2020, Keys filed a Supplement [114] to his Motion [110],
ostensibly to supplement his prior arguments in support of his present Motion for
Reconsideration. Suppl. [114]; see Mot. [110]. Keys asserts that his age and pre­
existing medical conditions including hypertension, moderate obesity, and diabetes,
place him “at a higher risk of severe COVID-19 infection.” Suppl. [114] at 3. He
maintains that the applicable 18 U.S.C. § 3553(a) factors weigh in favor of a
reduction in his sentence because of his “recent history, including his successful
operation of his own drywall and paining business,” his “in-fraction-free record” at
Coleman FCI, and his completion of numerous educational programs offered by the
Bureau of Prisons (“BOP”). Id. at 5.
The Government opposes Keys’s Motion [110], arguing that he has not
demonstrated any extraordinary and compelling reasons warranting a sentence
reduction. Resp. [113] at 3-5. The Government takes the position that despite
Keys’s medical conditions, “his medical records indicate that he is receiving
appropriate healthcare for all of his medical issues,” and he has therefore “failed to
establish an ‘extraordinary and compelling’ reason for a sentence reduction.” Id. at
5. The Government also maintains that Keys’s request for compassionate release
should be denied because he still poses a significant danger to the safety of the
community, and because the applicable factors set forth at 18 U.S.C. § 3553(a)
weigh against his release. See id. at 5-6.

3

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 4 of 13

II. DISCUSSION
A.

Whether Keys has exhausted his administrative remedies
Section 3582(b) of Title 18 of the United States Code provides that a

judgment of conviction constitutes a final judgment, although it can be modified
pursuant to the provisions of 18 U.S.C. § 3582(c). At issue in this case is a
requested modification under § 3582(c)(l)(A)(i), which states in relevant part as
follows:

(A)

(i)

[t]he court may not modify a term of imprisonment once it
has been imposed except that—
in any case—
(1)
the court, upon motion of the Director of the Bureau of
Prisons, or upon motion of the defendant after the
defendant has fully exhausted all administrative rights to
appeal a failure of the Bureau of Prisons to bring a motion
on the defendant’s behalf or the lapse of 30 days from the
receipt of such a request by the warden of the defendant’s
facility, whichever is earlier, may reduce the term of
imprisonment (and may impose a term of probation or
supervised release with or without conditions that does not
exceed the unserved portion of the original term of
imprisonment), after considering the factors set forth in
section 3553(a) to the extent that they are applicable, if it
finds that-extraordinary and compelling reasons warrant such a
reduction ....

18 U.S.C. § 3582(c)(l)(A)(i) (emphasis added).
While 18 U.S.C. § 3582(c)(1)(A) contains a mandatory exhaustion
requirement, see United States v. Franco, 973 F.3d 465, 468 (5th Cir. 2020), it
appears that Keys has now exhausted his administrative remedies by the lapse of
40 days from the receipt of his appeal to the General Counsel, Ex. I [110-1] at 22;
see 28 C.F.R. § 542.18 (stating a response is required by the General Counsel within
4

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 5 of 13

40 calendar days of an inmate’s filing of a BP-11); see also 28 C.F.R. §§ 542.13
through 542.15 (setting forth the BOP’s Administrative Remedy Procedure, which
would entail appealing the warden’s decision to the appropriate regional director,
and then, if unsatisfied with the regional director’s decision, appealing this decision
to the General Counsel of the BOP). The Government has not brought forth any
evidence to dispute or contradict Keys’s assertions in this regard, nor has it argued
that Keys has not exhausted his administrative remedies. The Court therefore
considers the merits of Keys’s request.
B.

Whether Keys is entitled to a sentence reduction
Even if Keys has exhausted his administrative remedies, the Court finds that

his Motion [110] for Compassionate Release should also be denied on the merits.
A sentencing court may reduce a term of imprisonment on motion by a
defendant for compassionate release pursuant to 18 U.S.C. § 3582(c)(1)(A) if it finds
that “extraordinary and compelling reasons warrant such a reduction . .. and that
such a reduction is consistent with applicable policy statements issued by the
Sentencing Commission.” 18 U.S.C. § 3582(c)(1)(A). In considering district courts’
denials of similar motions, the Fifth Circuit has considered the policy statement
issued by the Sentencing Commission at United States Sentencing Guidelines
(“U.S.S.G.”) § 1B1.13. See, e.g., United States v. Smith, 828 F. App’x 215, 216 (5th
Cir. 2020) (citing U.S.S.G. § 1B1.13, p.s.). Under § 1B1.13(1)(A), a reduction is
appropriate when, after considering the factors set forth in 18 U.S.C. § 3553(a) to
the extent they are applicable, a court determines that extraordinary and

5

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 6 of 13

compelling reasons warrant a reduction, and the defendant is not a danger to the
safety of any other person or the community, as provided in 18 U.S.C. § 3142(g).
See U.S.S.G. § 1B1.13.
According to Application Note 1 of § IB 1.13, the following are deemed
extraordinary and compelling reasons warranting a reduction: (1) the defendant’s
medical condition; (2) the defendant’s age; (3) family circumstances; or (4) other
reasons. U.S.S.G. § IB 1.13, cmt. n.l. With respect to a defendant’s medical
condition, the Application Note contemplates terminal illnesses, serious physical or
medical conditions, serious functional or cognitive impairments, or deteriorating
physical or mental health because of the aging process, that “substantially
diminishes the ability of the defendant to provide self-care within the environment
of a correctional facility and from which he or she is not expected to recover.” Id. at
cmt. n.l(A). “Other reasons” is a catchall category defined as “extraordinary and
compelling reasons other than, or in combination with” medical condition, age, or
family circumstances as “determined by the Director of the Bureau of Prisons.” Id.
at cmt. n.l(D).
Keys maintains that his pre-existing health conditions, particularly his
medical conditions of diabetes, moderate obesity, and hypertension, constitute
“extraordinary and compelling reasons” warranting compassionate release due to
the COVID-19 pandemic. Mot. [110] at 11; Suppl. [114] at 3. He avers “the fact
that he takes Lisinopril, amlodipine, Atorvastatin, Hydralrine, Hydrochlorathiazide
[sic] and is Insulin-Dependen[t] (i.e. twice day) to treat his diabetes, heart

6

Case rill-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 7 of 13

conditions, hypertension, and moderate [obesity] medical conditions likely place him
at higher risk for severe COVID-19 infection.” Suppl. [114] at 3. Keys further
alleges that Coleman FCI “is the site of the leading coronavirus BOP’s facility in the
United States from COVID-19.” Mot. [110] at 9.1 He points to guidance from the
Centers for Disease Control and Prevention (“CDC”) that highlights diabetes and
hypertension as pre-existing conditions that result in an increased risk of
contracting COVID-19. Id. at 11.
Courts have considered this question and agree that generalized concerns of
contracting COVID-19 do not constitute “extraordinary and compelling reasons”
justifying release. See, e.g., United States u. Perez-Serrano, No. CR 5:13-CV-2-DCBLRA, 2020 WL 2754914, at *2 (S.D. Miss. May 27, 2020); United States v. Wright,
No. CR 16-214-04, 2020 WL 1976828, at *6 (W.D. La. Apr. 24, 2020); United States
v. Ayala-Calderon, No. 419CR00276ALMKPJ, 2020 WL 1812587, at *2 (E.D. Tex.
Apr. 8, 2020); United States v. Clark, No. CR 17-85-SDD-RLB, 2020 WL 1557397, at
*4 (M.D. La. Apr. 1, 2020); United States v. Munguia, No. 3:19-CR-191-B (03), 2020
WL 1471741, at *4 (N.D. Tex. Mar. 26, 2020); see also United States v. Eberhart, No.
13-CR-00313-PJH-1, 2020 WL 1450745, at *2 (N.D. Cal. Mar. 25, 2020); United
States v. Fitzgerald, No. 2:17-cr-00295-JCM-NJK, 2020 WL 1433932, at *2 (D. Nev.
Mar. 24, 2020). This must be the rule because if it were otherwise and courts were
required to release every prisoner with a fear or risk of contracting COVID-19, the

I However, BOP reporting (updated daily) on Coleman FCI shows 1 reported case of a positive test
among inmates and 22 reported cases of positive tests among staff members, with 224 inmates and
II staff members recovered from COVID-19, as of the date the of filing of this Order, U.S BUREAU OF
PRISONS, COVID-19 Update, https://www.bop.gov/coronavirus/ (last visited December 1, 2020).

7

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 8 of 13

courts “would then be obligated to release every prisoner.” Wright, 2020 WL
1976828, at *5.
The Court has not located any Fifth Circuit precedent directly addressing
this question, but the Third Circuit has cited this logic approvingly and noted that
“the mere existence of COVID-19 in society and the possibility that it may spread to
a particular prison alone cannot independently justify compassionate release,
especially considering BOP’s statutory role, and its extensive and professional
efforts to curtail the virus’s spread.” United States v. Raia, 954 F.3d 594, 597 (3d
Cir. 2020). The Court finds this logic persuasive and that it should apply with
equal force to this case.
Other courts considering the effect of pre-existing medical conditions on this
analysis have held that such conditions “in and of itself [are] not sufficient to
establish extraordinary and compelling reasons to justify a reduction in
[defendant's sentence.” See, e.g., United States v. Takewell, No. CR 3:14-00036,
2020 WL 4043060, at *3 (W.D. La. July 17, 2020) (finding that defendant’s “general
complaint” of obesity was “not consistent with extraordinary or compelling
circumstances” justifying release); United States u. Stiger, No. 3:12-CR-54-L-2, 2020
WL 3884485, at *2 (N.D. Tex. July 9, 2020) (finding that defendant’s chronic
medical conditions, including hypertension and diabetes, insufficient to justify
reduction in sentence because defendant did not establish “exceptional and
compelling circumstances”); United States v. Olejniczak, No. 1:15-CR-00142 EAW,
2020 WL 2846591, at *4 (W.D.N.Y. June 2, 2020) (finding defendant’s pre-existing

8

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 9 of 13

medical conditions, including hypertension, insufficient to justify reduction in
sentence).
Keys’s generalized concern of contracting COVID-19 is not an “extraordinary
and compelling reason” justifying his release under 18 U.S.C. § 3582(c)(1)(A),
despite his diagnoses of pre-existing medical conditions. Keys’s medical records
show that he has received several prescriptions to control his diabetes, including
diabetic test strips and insulin. Ex. 5 [107-1] at 4-6, 13-25 (filed restricted). He was
also prescribed lisinopril, amlodipine, atorvastatin, hydralazine, and
hydrochlorothiazide to control his blood pressure and hypertension. Id. at 7. The
medical records indicate that Keys’s health conditions are being monitored and
treated with prescription drugs, id. at 7-9, and that he is under the supervision of
health care professionals at the BOP, id. at 26-59. While Keys’s health conditions
may be characterized as “chronic,” the medical evidence supports the conclusion
that they do not “substantially diminish!] the ability of the defendant to provide
self-care within the environment of a correctional facility,” U.S.S.G. § IB 1.13
n.l(A)(ii), as evidenced by his ability to receive medical care from BOP for these
conditions and administer prescribed medications himself, id. This is insufficient to
demonstrate an “extraordinary and compelling reason” justifying a sentence
reduction under 18 U.S.C. § 3582(c)(1)(A).
Keys also contends that his moderate obesity places him at an increased risk
of contracting COVID-19. Suppl. [114] at 2-3. However, obesity does not meet the
extraordinary and compelling standard established by the Sentencing Guidelines

9

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 10 of 13

policy statement. U.S.S.G. § 1B1.13, cmt. n.l. Keys, as a result of his obesity, is not
suffering from a serious physical or medical condition, serious functional or
cognitive impairment, or deteriorating physical or mental health because of the
aging process that “substantially diminishes” his ability to provide self-care within
Coleman FCI. See id. While it is true that, according to CDC guidance, obesity is
an underlying health condition that poses increased risk for severe illness from
COVID-19, by itself it does not afford adequate grounds for compassionate release.
See Takewell, No. CR 3:14-00036, 2020 WL 4043060, at *3; see also United States v.
Gheith, No. CR 14-69, 2020 WL 5850162, at *4 (E.D. La. Oct. 1, 2020) (noting that
“courts have found obesity does not provide adequate grounds for compassionate
release” and finding that defendant’s obesity “does not rise to the level of
extraordinary and compelling”); United States v. Denault, No. 11 CRIM. 121-7
(GBD), 2020 WL 2836780, at *2 (S.D.N.Y. June 1, 2020) (finding defendant’s pre­
existing medical condition of obesity insufficient to justify reduction in sentence).
Here, Keys’s medical records also reveal that he has received counseling
services for dieting, exercising, and weight loss, see Ex. 5 [107-1] at 32, indicating
that he is capable of self-care while incarcerated and has access to services to
address his obesity. Given that Keys takes regular medication for his hypertension
and diabetes, he has shown that he is capable of managing his obesity, and based
upon the medical evidence submitted, see Ex. 5 [107-1], Keys’s pre-existing medical
conditions are not sufficient to establish extraordinary and compelling reasons to
justify a reduction in his sentence.

10

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 11 of 13

Keys also asserts that his age qualifies as an extraordinary and compelling
reason to justify a sentence reduction. Suppl. [114] at 3. According to the
Sentencing Commission’s policy statement on compassionate release, a defendant’s
age may qualify as an extraordinary and compelling reason for a sentence
reduction. U.S.S.G. § 1B1.13, cmt. n.l(B). The defendant’s age makes him eligible
for compassionate release if he meets three criteria: (i) defendant “is at least 65
years old”; (ii) defendant “is experiencing a serious deterioration in physical or
mental health because of the aging process”; and (iii) defendant “has served at least
10 years or 75 percent of his or her term of imprisonment, whichever is less.” id.
Here, Keys is 58 years old, Ex. B [114-2] at 2, he has served approximately 72
percent of his 150-month term of imprisonment, and there is no indication that he is
experiencing a serious deterioration in his physical or mental health. Keys has
failed to establish that his age qualifies as an extraordinary and compelling reason
for a sentence reduction.
Nor has Keys demonstrated that the applicable factors set forth under 18
U.S.C. § 3553(a) weigh in favor of his early release. These factors include:
(1) the nature and circumstances of the offense and the
history and characteristics of the defendant; (2) the need
for the sentence imposed; (3) the kinds of sentences
available; (4) the kinds of sentence and sentencing range
established for the applicable category of offense or
defendant; (5) any pertinent policy statement; (6) the need
to avoid unwarranted sentence disparities among
defendants with similar records; and (7) the need to
provide restitution to any victims of the offense.

11

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 12 of 13

United States v. Chambliss, 948 F.3d 691, 693 n.3 (5th Cir. 2020) (citing 18 U.S.C.
§ 3553(a)).
Keys notes that he has no disciplinary incidents while incarcerated and has
completed “at least 70 hours of education courses.” Mot. [110] at 13. He claims that
he has created a plan to transition back into society, including living with his wife
and his granddaughter. Id. at 14. Keys states that the Court should take into
consideration his reentry plan and his “more recent history, including his successful
operation of his own drywall and painting business, in which he had provided 16
[families] with a job prior to failing from grace due to his underlying criminal
offense.” Suppl. [114] at 5. Keys has attached his sentencing computation data, Ex.
A [114-1] at 2-3, to his Supplement [114] to his Motion, and has also attached his
individualized reentry plan, Ex. B [114-2] at 2-4. The Government counters that a
reduction in Keys’s sentence would “demean the serious nature” of the underlying
offense he committed,, and that the applicable § 3553(a) factors weigh against
compassionate release. Resp. [113] at 6.
Keys is currently serving a 150-month term of imprisonment, of which he has
served approximately 108 months. Resp. [113] at 6. According to the Presentence
Investigation Report (“PSR”) prepared in this case, Keys’s offense level was a 27,
and his criminal history was a category V, with a Guidelines imprisonment range of
120 to 150 months. PSR [32] at 14-19 (filed under seal). Keys was convicted of a
serious offense, mail fraud, and the sentence imposed in this case reflects that
seriousness, as well as the need for deterrence and protection of the public under

12

Case l:ll-cr-00079-HSO-JCG Document 115 Filed 12/01/20 Page 13 of 13

the applicable factors set forth at § 3553(a). Keys also has a significant criminal
history, including convictions of armed bank robbery and conspiracy to transport
stolen money orders. PSR [32] at 14-19 (filed under seal). The Court finds that
releasing Keys from incarceration at this time would not reflect the gravity of his
offense, protect the public, or afford adequate deterrence. See 18 U.S.C. § 3553(a).
For these reasons as well, Keys’s Motion [110] should be denied on the merits.
III. CONCLUSION
IT IS, THEREFORE, ORDERED AND ADJUDGED that, Defendant
Bobby Earl Keys’s Motion [110] for Reconsideration is DENIED.
SO ORDERED AND ADJUDGED, this the 1st day of December, 2020.

j/ ‘ifycdit Scdevmaa Ofendea
HALIL SULEYMAN OZERDEN
UNITED STATES DISTRICT JUDGE

13

o

APPENDIX

3

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 1 of 20

f v'-;

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHISN DISTRICT OF MISSISSIPPI
SOUTHERN DIVISION
UNITED STATES OF AMERICA
V.

CRIMINAL NO. l:llcr00079-HSO-JMR

BOBBY EARL KEYS

Reply in Support of Motion for Compassionate Release
Under 18 U.S.C. S 3582(c¥lRAt
Comes now Defendant Bobby Earl Keys and files this Reply in support of
his Motion for Compassionate Release under 18 U.S.C. § 3582(c)(1)(A). In
support of this Reply, Mr. Keys presents the following:
I. Introduction.
This Reply is filed in support of the pro se Motion for Compassionate
Release filed by Mr. Keys on May 12,2020. Dkt. #95. The government filed a
Response in opposition to the Motion on May 26, 2020. Dkt. #99. Given that the
original motion was filed without benefit of counsel, Mr. Keys asks the Court to
consider certain facts and points of law that were not originally raised in the
Motion. Should the government wish to file a surreply, Mr. Keys will not oppose
such a request.

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 2 of 20

In summary, Mr. Keys is currently incarcerated at Coleman Low FCI in
Sumterville, Florida and seeks compassionate release because he is at high-risk
from COVID-19 due to his medical condition. He suffers from diabetes,
hypertension, and obesity, all of which put him at greater risk of severe illness or
death should he become infected with COVID-19. In light of these circumstances,
Mr. Keys respectfully requests early release or home confinement. The Court has
the authority to grant such relief under 18 U.S.C. § 3582, which allows for
compassionate release of an incarcerated person based on dangers posed by
COVID-19 under its “extraordinary and compelling reasons” provision.
II. This Court has the authority to grant compassionate release.
Under changes made to the compassionate release statute by the First Step
Act, courts do not have to wait for a motion from the Director of BOP to
resentence prisoners under 18 U.S.C. § 3582(c)(l)(A)(i), if “extraordinary and
compelling reasons” exist. Moreover, the justifications for resentencing need not
involve only terminal illness or urgent dependent care for minor children.
In addition to expanding upon the reasons for granting compassionate
release, section 603 of the First Step Act changed the process by which
§ 3582(c)(1)(A) compassionate release occurs. Instead of depending upon the
BOP Director to determine an extraordinary circumstance and initiate release, a
court can now resentence “upon motion of the defendant,” after the inmate

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 4 of 20

His request was denied on April 8, 2020. See Warden’s Denial, Exhibit 3. More
than thirty days has elapsed since his request was received by the BOP, therefore
Mr. Keys has satisfied the exhaustion requirements of 18 U.S.C. § 3582. The
Court may now consider his motion on its merits.
IV. The COVID-I9 pandemic warrants release of Mr. Keys to home
confinement.
The COVID-19 outbreak presents a compelling and extraordinary
circumstance that warrants compassionate release. On March 11, 2020, the World
Health Organization officially classified the new strain of coronavirus, COVID-19,
as a pandemic.1 The pandemic has led to the infection of at least 8,242,999 people
worldwide, leading to 445,535 confirmed deaths as of June 18, 2020.2 According
to the Centers for Disease Control and Prevention (CDC), approximately 2,132,321
people have been infected in the United States alone, leading to 116,862 deaths as
of June 18, 2020.3 In response to the pandemic, the White House declared a
national emergency, under Section 319 of the Public Health Service Act, 42 U.S.C.
§ 247(d)).4

i«

WHO Characterizes COVID-19 as a Pandemic,” World Health Organization (March 11,
2020), available at https://bit.ly/2W8dwpS.
2 “Corona Virus Disease Pandemic,” World Health Organization, available at:
https://www.who.int/emergencies/diseases/novel-coronavirus-2019
3 “Coronavirus Disease 2019,” Center for Disease Control, available at:
https://www.cdc.gov/coronavirus/2019-ncov/cases-updates/cases-in-us.html
4 The White House, Proclamation on Declaring a National Emergency Concerning the Novel
Coronavirus Disease (COVID-19) Outbreak (March 13, 2020), available at

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 5 of 20

Unfortunately, the high-density conditions of confinement at BOP facilities
creates an optimal environment for the transmission of contagious disease.5 Public
health experts are unanimous in their opinion that incarcerated individuals “are at
special risk of infection, given their living situations,” and “may also be less able
to participate in proactive measures to keep themselves safe,” and “infection
control is challenging in these settings.”6 As of June 16, 2020, the facilities at
Coleman Low have at least one staff with an “active” case of COVID-19.7
However, the BOP acknowledges that its numbers are not necessarily an indication
of the true extent of COVID-19 in its facilities. Asked whether BOP’s figures
“could be relied upon as an accurate reflection of the number of inmates and staff
that are infected,” BOP Public Information Supervisor Sue Allison acknowledged
that “reporting of cases while tied to positive cases, does not necessarily account
for unconfirmed (non-tested) cases.”8

https://www.whitehouse.gov/presidential-actions/proclemation-declaring-national-emergencyconceming-novel-coronavirus-disease-CO VID-19-outbreak/.
5 Joseph A. Bick, “Infection Control in Jails and Prisons,” Clinical Infectious Diseases 45(8):
1047-1055 (2007), available at https://doi.org/10.1086/521910.
6 “
Achieving a Fair and Effective COVID-19 Response,” Yale Law School, available at:
https://law.yale.edu/sites/default/files/area/center/ghjp/documents/fmal_covid19_letter_from_public_health_and_legal_experts .pdf
7«
COVID-19 Coronavirus,” Federal Bureau of Prisons, available at:
https: :www.bop.gov/coronavirus/
8
Walter Pavlo, Bureau ofPrisons Underreporting COVID-19 Outbreaks in Prison, FORBES
(Apr. 1, 2020), available at https://www.forbes.eom/sites/walterpavlo/2020/04/01/bureau-ofprisons-underreporting-outbreaks-in-prison/#268a97f7ba32.
5

/

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 6 of 20

In addition to the dangers of known active cases ot CUV1LPT9, the risk
factors for a rapid increase are present. The CDC advises that the coronavirus is
“spread mainly from person-to-person ... [bjetween people who are in close
contact with one another ... [tjhrough respiratory droplets produced when an
infected person coughs or sneezes.”9 The droplets can land in the mouths or noses,
or can be inhaled into the lungs, of people who are within about six feet of the
infected person.10 The coronavirus is highly contagious and those who are infected
can spread the virus even if they are asymptomatic.11 Given the high-density and
frequent arrival and departure of staff, BOP facilities are a nearly ideal incubation
environment for COVID-19.
Partly because of these conditions, the growth in cases within BOP facilities
does not appear to be under control. As of June 17, 2020, BOP has identified 1 ,190
federal inmates and 170 BOP staff with active cases of COVID-19.12 Tragically, at
least 85 inmates have now died from COVID-19 while in BOP custody, as well as
one staff member.13

9«

Coronavirus Disease 2019 (COVID-19), How It Spreads,” Center for Disease Control and
Protection, Mar. 4, 2020, available at: https://www.cdc.gov/coronavirus/2019ncov/prepare/transmission.html
10 Id.
n«
Features, Evaluation and Treatment Coronavirus (COVID-19),” National Center for
Biotechnology Information, May 18, 2020, available at:
https://www.ncbi.nlm.nih.gOv/books/NBK554776/#_ncbi_dlg_citbx_NBK554776
13 ;C°VID-19 C0r°navirUS’” Bureau ofPrisons’ available at: https://www.bop.gov/coronavirus/

Case 1:1 l-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 7 of 20

Since the reported BOf tigures are limited to ollly confirmed-eases, the

_

actual COVID-19 problem is likely much larger than these numbers suggest. As
the court noted in United States v. Esparza, “testing inside prisons has been scant
except for people who self-report symptoms — which means that statistics about
the number of infections already in BOP facilities are largely meaningless.” No.
1:07-CR-294, 2020 WL 1696084, *2 (D. Id. Apr. 7, 2020), appeal pending, No.
20-30083 (9th Cir.). See also Order at 5, United States v. Caddo, No. 3:18-cr08341-JJT, ECF No. 174 (D. Ariz. Mar. 23, 2020) (“it is unknowable whether BOP
detainees or inmates have COVID-19 until they are tested, and BOP has not
conducted many or any such tests because, like the rest of the country, BOP has
very few or no actual COVID-19 test packets”).
Despite the widespread understanding of the need to prevent further
exposure of inmates and staff within BOP facilities, very little of substance has
been done to decrease the risk of spreading COVID-19. To this day, inmates must
share communal living spaces, such as cells, recreation rooms, dining halls,
libraries, and exercise yards. To make matters worse, hand sanitizer, an effective

7

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 8 of 20

disinfectant recommended by the CDC to redurelransmissieflHS-deemed
forbidden “contraband” in BOP facilities because of its alcohol content.14
In recognition of the unique risks that correctional facilities pose to both
inmates and employees, more than 400 former DOJ leaders, attorneys, and federal
judges recently sent an open letter to the President, asking that he take immediate
action to reduce the population in correctional facilities to prevent the catastrophic
spread of COVID-19.15 Similarly, on March 30, 2020, members of Congress
wrote Attorney General Barr again to implore him “to do the right thing” and
“immediately move to release medically-compromised, elderly, and pregnant
prisoners in the custody of the BOP.”16 On April 3, 2020, Attorney General Barr
issued a memorandum directing the BOP to move vulnerable prisoners into home
confinement with due “dispatch.”17 On April 10, 2020, members of Congress
wrote again to Attorney General Barr, noting that “since the last time we wrote to
you, there have been at least eight deaths in BOP custody,” all of which involved

14 Keri Blakinger and Beth Schwarzapfel, How Can Prisons Contain Coronavirus When Purell is
Contraband?, ABA J. (Mar. 13, 2020), available at
https://www.abajoumal.com/news/article/when-purell-is-contraband-how-can-prisons-containcoronavirus.
15Letter from Julie Abbate, et al. to President Donald J. Trump (Mar. 27, 2020), available at
https://fairandjustprosecution.org/wp-content/uploads/2020/03/Letter-to-Trump-from-DOJ-andJudges-FINAL.pdf.
16 Letter from Rep. Jerrold Nadler & Rep. Karen Bass to U.S. Attorney General William P. Barr
(Mar. 30, 2020), available at:
https://judiciary.house.gOv/uploadedfiles/3.30.20_letter_to_ag_barr_re_covidl9.pdf.
17 Attorney General William P. Barr, Memorandum for Director of Bureau of Prisons (“Barr
April 3 Memorandum”), Apr. 3, 2020, available at https://www.politico.com/f/?id=000001714255-d6bl-a3fl-c6d51b810000.
8

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 9 of 20

prisoners with "long-tcmi, pie-exisling-medteal conditionsTLand

why BOP

“did not see fit to take action concerning these individuals before it was too late.”18
Inmates are not the only people at risk from BOP facilities and asking for
help. On March 31,2Q20, BOP employees filed a complaint with the Occupational
Safety and Health Administration, alleging that federal prisoners are “proliferating
the spread” of COVID-19 and citing “imminent danger” at BOP facilities
nationwide.19 The union listed 100 of 122 facilities nationwide with alleged safety
or health hazards.20 The complaint details numerous failings by the BOP in
maintaining a safe environment for its workers, and by extension, the inmates as
well.
Based on the BOP complaint, it appears that there is widespread belief
among the rank and file of BOP staff that the facilities are unsafe and that BOP is
not taking the actions necessary to prevent the spread of COVID-19. This is
consistent with what we know from numerous medical experts: jails and prisons

18 Letter from Rep. Jerrold Nadler & Rep. Karen Bass to U.S. Attorney General William P.
Ban(Apr. 10, 2020), available at: https://judiciary.house.gov/uploadedfiles/2020-0410_letter_to_doj_on_COVID-19.pdf; see also Luke Barr, Bureau of Prisons Coronavirus
Response Under Fire: ‘Reactive,’ Not ‘Proactive,’ Inmates, Staff Say: BOP Has More COVID19 Cases Than Three States, ABC News (Apr. 1, 2020, 10:49 AM),
https://abcnews.go.com/Health/bureau-prisons-coronavirus-response-fire-reactive-proactiveinmates/story?id=70063263.
19 U.S. Department of Labor, OSHA Complaint, (June 15,2020), p. 3, available at:
https://www.nacdl.org/getattachment/65cffe9c-0b2b-4018-a7a4-dl006c262141/bop-oshacomplaint.pdf
20 Id. at p.5

/

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 10 of 20

are among the most dangerous places to be during aireptdcmic because they create
the ideal environment for transmission of contagious diseases.21 According to Dr.
Jaime Meyer of the Yale Law School Liman Center, prisons pose a particular risk
for the spread of contagious disease.22 Inmates are confined in close proximity and
the staff leave and return daily. Incarcerated individuals “are at special risk of
infection, given their living situations,” and “may also be less able to participate in
proactive measures to keep themselves safe;” “infection control is challenging in
these settings,” according to public health experts.23 Jails and prisons are sites of
disproportionate infectious disease rates.24 Outbreaks of the flu regularly occur in
jails, and during the H1N1 epidemic in 2009, many jails and prisons dealt with
high numbers of cases.23

21 Matthew J. Akiyama, et al., Flattening the Curve for Incarcerated populations - COVID-19 in
Jails and Prisons, New England J. Med. (Apr. 2, 2020),
https://www.nejm.org/doi/full/10.1056/NEJMp2005687 (“Thisefore, we believe that we need to
prepare now, by ‘decarcerating,’ or releasing, as many people as possible .... “); Joseph A.
Bick, Infection Control in Jails and Prisons, 45 CLINICAL INFECTIOUS DISEASES 8, 1047-55
(Oct. 15, 2007), available at https://doi.org/10.1086/521910.
22 4
‘Expert Declaration of Dr. Jamie Meyer, Assistant Professor of Medicine at Yale School of
Medicine,” Yale Law School, (June 12, 2020) available at:
https://law.yale.edu/sites/default/files/area/center/liman/20.03.12_exp._declaration_outline_fmal
_and_signed2_dr._jaimie_meyer.pdf
23 “Achieving A Fair And Effective COVID-19 Response: An Open Letter to Vice-President
Mike Pence, and Othis Federal, State, and Local Leaders from Public Health and Legal Experts
in the United States,” (Mar. 2, 2020), available at
https://law.yale.edu/sites/default/files/area/center/ghjp/documents/final_COVID19_letter_from_public_health_and_legal_experts.pdf
24 Leonard S. Rubenstein, et al, HIV, Prisoners, and Human Rights, LANCET (July 14, 2016),
https://www.thelancet.com/joumals/lancet/article/PHS0140-6736(16)30663-8/fulltext.
25 Prisons and Jails are Vulnerable to COVID-19 Outbreaks, The Verge (Mar. 7, 2020),
https://www.theverge.eom/2020/3/7/21167807/coronavirus-prison-jail-health-outbreak-COVID19-flu-soap.
10

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 11 of 20

Based ofrthe~experiefi€€-o£-go;

lents across the world, it appears that

there is no easy way to make prisoners safe while in custody. In China, officials
have confirmed the coronavirus spreading rapidly in Chinese prisons.26 Secretaiy
of State Mike Pompeo has called for Iran to release Americans detained there
because of the deeply troubling” “[r]eports that COVID-19 has spread to Iranian
prisons,” noting that “[t]heir detention amid increasingly deteriorating conditions
defies basic human decency.”27 Courts across Iran have granted 54,000 inmates
furlough as part of the measures to contain coronavirus across the country.28 As
these other countries are beginning to recognize, the only effective strategy
available is to identify non-violent inmates, especially those at elevated risk of
infection, and remove them from the prison population. Where prison
administrators have failed to take this approach, the results have been predictably
disastrous.

26 Rhea Mahbubani, Chinese Jails Have Become Hotbeds of Coronavirus As More Than 500
Cases Have Erupted, Prompting the Ouster of Several Officials, Bus. INSIDER (Feb. 21, 2020,
5:11 PM), https://www.businessinsider.eom/500-coronavirus-cases-reported-in-jails-in-china2020-2.
27 Jennifer Hansler & Kylie Atwood, Pompeo calls for humanitarian release of wrongfully
detained Americans in Iran amid coronavirus outbreak, CNN (Mar. 10, 2020),
https://www .cnn.com/2020/03/1O/politics/mike-pompeo-iran-release-detained-americanscoronavirus/index.html.
Claudia Lauer and Colleen Long, US Prisons, Jails On Alertfor Spread of Coronavirus,
Associated Press (Mar. 7,2020,8:12 PM),
https://apnews.com/af98b0a38aaabedbcb059092db356697.
11

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 12 of 20

One tragicexample“5fOO¥®-491

trial for exponential growth is a

guard at Rikers Island in New York City who recently tested positive.29 Just three
days later, at least 38 people at Rikers had tested positive.30 Despite efforts to
release hundreds of detainees to try to stem the tide of infection there,31 the virus
continues to spread rapidly. As of April 10, 2020, 304 inmates and 518 staffers
had tested positive, and one inmate had died.32 An op-ed ran in the Washington
Post on April 10, 2020 with the title: “I’m a doctor on Rikers Island. My patients
shouldn’t have to die in jail: In anything called a justice system, a death in such
circumstances is a failure.”33 On April 14, 2020, another Rikers inmate died of
COVID-19.34

29 NYC Officials Call for Release of ‘Most at Risk’ on Rikers Island as More Test Positive for
Virus, NBC N.Y., Associated Press (Mar. 18, 2020),
https://www.nbcnewyork.com/news/local/nyc-officials-call-for-release-of-most-at-risk-on-rikersprison-as-more-test-positive-for-virus/2333348.
30 38 Positive for Coronavirus at Rikers, NYC Jails, N.Y. TIMES, ASSOCIATED PRESS (Mar. 21,
2020), https://www.nytimes.com/aponline/2020/03/21/us/ap-us-virus-outbreak-inmates.html.
31 Craig McCarthy, NYC To Release 300 More Rikers Inmates Admit Coronavirus Pandemic,
N.Y. Post (Mar. 25, 2020 7:25 AM), https://nypost.eom/2020/03/25/nyc-to-release-300-morerikers-inmates-amid-coronavirus-pandemic/.
32 Rebecca Rosenberg, Second Rikers Island inmate Dead From Coronavirus After Failed
Release, N.Y. POST (Apr. 14, 2020, 11:00 AM), https://nypost.com/2020/04/14/second-rikersisland-inmate-dead-from-coronavirus/; Justin Carissimo, First Rikers Island Inmate Dies After
Testing Positive for Coronavirus, CBS News (Apr. 7, 2020 2:36 PM),
https://www.cbsnews.com/news/coronavirus-michael-tyson-rikers-island-inmate-dies-COVID19/.
33 Rachael Bedard, Wash. Post (Apr. 10, 2020, 9:47 a.m. EDT),
https://www.washingtonpost.com/outlook/dbctor-rikers-compassionaterelease/2020/04/10/07fc863a-7a93-l lea-9bee-c5bf9d2e3288_story.html.
34 Rosenberg, supra.
12

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 13 of 20

F.ven diligent ammrpfrHTy-prevent the spread within a prison have proved
inadequate. On March 23, two inmates in Cook County, Illinois jail were placed in
isolation cells after testing positive for COVID-19. On April 8, after a little over
two weeks, the virus had infected 238 inmates and 115 staff members.35 On April
19, the count has risen to 395 inmates and 225 staff members, and four inmates had
died.36 The emerging conclusion is clear: only through judicious release of non­
violent offenders can further unnecessary deaths be avoided.
The large-scale release of detainees reflects the growing recognition that
“[ijt’s like an approaching tsunami. Once it hits, it’s too late.... We should
release as many as it’s safe to release in order to avoid a situation like the one at
Rikers.”37 “The coronavirus is invading U.S. jails and prisons, prompting inmate
releases, reduced bail requirements and other extraordinary measures as officials
rush to avert a potentially disastrous spread of the virus among crowded inmate
populations. ”38

35 Timothy Williams & Danielle Ivory, Chicago’s jail Is Top U.S. Hot Spot as Virus Spreads
Behind Bars, N.Y. TIMES (Apr. 8, 2020), https://www.nytimes.eom/2020/04/08/us/coronaviruscook-county-j ail-chicago .html.
36 4th Detainee at Cook County Jail Dies after Contracting Coronavirus, NBC CHICAGO (Apr.
19, 2020, 9:37 PM), https://www.nbcchicago.com/news/local/4th-detainee-at-cook-county-jaildies-after-contracting-coronavirus/2258480/.
37 38 Positive for Coronavirus at Rikers, supra.
38 Releasing Inmates, Screening Staff: U.S. Jails and Prisons Rush to Limit Virus Risks,
N.Y. Times, Reuters (Mar. 22,2020),
https://www.nytimes.com/reuters/2020/03/22/us/22reuters-health-coronavirus-usa-inmates.html
(emphasis added).
13

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 14 of 20

At this pointrearh^efeaj^-to-horne confinement for the most vulnerable
inmates is the only realistic way to control the outbreak within BOP facilities. Mr.
Keys is powerless to take the preventative self-care measures directed by the CDC
to remain safe from COVID-19 infection. He cannot self-quarantine or employ
social distancing while incarcerated. BOP facilities typically have a number of
community spaces, including a common room, laundry facilities, barbershop,
medical areas, dining hall, library, and gym. These high-density areas are
precisely the kind of spaces that contribute to the propagation of COVID-19.
Correctional health experts worry that no matter what precautions are taken by
crowded prisons, these facilities may become incubators for the COVID-19
disease/9 Prisons cannot maintain the level of separation and sanitation necessary
to prevent widespread infection.40 As stated above, BOP is not taking adequate
steps to contain the virus and protect the inmate population. Releasing Mr. Keys
will not only protect him from these conditions, but would allow BOP to lower the
population density at its facilities, thereby reducing the spread of COVID-19, and
assisting in the effort of saving lives of both inmates and staff.
V. Mr. Keys’ poor health puts him at higher risk for infection and death from
COVID-19.

39 Michael Kaste, “Prisons and Jails Worry About Becoming Coronavirus ‘Incubators’,” NPR
(March 13, 2020), available at https://www.npr.org/2020/0'3/13/815002735/prisons-and-jailsworry-about-becoming-coronavirus-incubators.
40 “Prisons and Jails are Vulnerable to COVID-19 Outbreaks,” The Verge (Mar. 7, 2020),
available at https://bit.ly/2TNcNZY.
14

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20

Page 15 of 20

T^Ir. Keys is 5~8 years olif-and hag rnrr^pfi served approximately 85 months
of his 150-month sentence. See BOP Inmate Data, Exhibit 4. According to the
BOP, his projected release date is March 10,2024, and he will be eligible for home
confinement on September 10,2023. Id at p.2. Mr. Key’s sentence was imposed
as a result of his conviction for mail fraud, a non-violent offense. As noted in his
PSR, his criminal history category is V. PSR, 74, Dkt. #32
Mr. Keys suffers from multiple medical conditions that put him at higher
risk of serious illness or death should he become infected with COVID -19. First,
he has Type II diabetes, which requires ongoing treatment with daily insulin. See
BOP Medical Records, Exhibit 5, p.3-5. In addition, Mr. Keys has been diagnosed
by the BOP with hypertension, with recent blood pressure readings as high as
160/94. Id., at p.2. According to the CDC, any blood systolic pressure reading
above 140 or diastolic reading above 90 constitutes stage 2 hypertension.41
The
CDC lists both diabetes and hypertension among the conditions which increase the
risk associated with contracting COVID-19.42
Given these conditions, the risk of COVID-19 for Mr. Keys is especially
great. The CDC recommends those in higher risk categories, such as Mr. Keys,

42 «

precautions7groups-at-higher-risk.html
15

Case 1:1 l-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 16 of 20

make s

jdexposure.43 For those at higher risk, every precaution

I must be made, especially in light of the most recent CDC rese^chvvhichsuggisfeCOVID-19 is twelve times more deadly for those at elevated risk than it is for the t
general population.44
There is an urgent need to act now, because COVID-19 has already spread
to the facilities at Coleman, and it is likely to spread more quickly in prison than in
the general community. The BOP’s efforts to combat this pandemic may be wellintentioned, but they are inarguably inadequate, as demonstrated by the more than
80 deaths that have thus far occurred in BOP facilities.
The dangerous environment at Coleman, coupled with Mr. Keys’
documented medical condition, constitute the sort of extraordinary conditions that
warrant compassionate release. Release after serving seven years would not erase
the message this Court sent to him, and to the public, about the seriousness of his
offense. Every day of the last seven years in prison has been a reminder of the
mistakes he made, and the restrictions placed upon him during his supervised
release will be a further reminder of his need to obey the law. Moreover, just as
the Court must assure that Mr. Keys is adequately punished, there is also a need to
ensure that he is safe. It was not this Court’s intention to put Mr. Keys in danger
43 Id.
44 Stokes EK, Zambrano LD, Anderson KN, et al. Coronavirus Disease 2019 Case Surveillance — United States,
January 22-May 30, 2020. MMWR Morb Mortal Wkly Rep. ePub: 15 June 2020. DOI:
http://dx.doi.org/10.15585/mmwr.mm6924e2

16

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 17 of 20

lot

itasjong as there is no adequate treatment for COVID-19, his

continued incarceration is a possible death sentence?

ition of these

extraordinary circumstances, early release is the most reasonable option.
VI.

Mr. Keys is not a danger to the public.
Since his incarceration, Mr. Keys been doing his best to rehabilitate himself.

He has made the most of his time with the BOP since his incarceration in 2013,
completing at least more than 70 hours of educational courses, including a current
course in real estate. See BOP Inmate Education Data, Exhibit 6. From a
statistical perspective, people in Mr. Keys age group are unlikely to commit further
crimes, as there is a marked decrease in criminal activity among people over fifty
years old. Even among those with a Criminal History Category V, only 29.4% of
inmates released between the ages of 50-59 are ever reincarcerated.45
Given the above factors and the non-violent nature of Mr. Keys’ offense,
compassionate release can be granted without any risk to public safety. Mr. Keys
implores the Court to grant his request. Every day that he remains incarcerated
poses a serious and avoidable risk to his health.
VIL If released, Mr. Keys would be able to live in a much safer environment
than that provided by the BOP.

45 "The Effects of Aging on Recidivism Among Federal Offenders," United States Sentencing Commission, A-44,
2017. Available at: https://www.ussc.gov/sites/default/files/pdf/research-and-publications/researchpublications/2017/20171207_Recidivism-Age.pdf

17
;

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 18 of 20

^radted_compassionate release, Mr. Keys would return home to live with
his wife Connie Keys in their home inGul^orfMississippTT

4avitof

Connie Keys, Exhibit 7. He would share the three bedroom, two bathroom home
with his wife and.Ms. Keys’ granddaughter. Id. The United States Office of
Probation has previously inspected the home and noted that it is approximately
2,800 square feet in size, and “well kept.” See PSR, ^ 92. Given the
Void MfotAutf

living conditions in BOP facilities, and the ongoing infections among inmates and
staff there, Mr. Keys will be significantly safer from infection at home than he
would be in BOP custody. Unlike his current conditions at Coleman, he will be in
close contact with only two other persons, and will be able to follow all social
distancing recommendations to keep himself and those around him safe. He will
also live in much more sanitaiy conditions at home than he would at BOP, having
access to hand sanitizers, private bathrooms and eating facilities. All these factors
make early release a safer option for him than BOP custody.
VIII. Conclusion.
The COVID-19 virus is highly transmissible, extraordinarily dangerous, and
poses a severe threat to all inmates at BOP facilities, especially those in poor health
such as Mr. Keys. The conditions at BOP facilities do not allow Mr. Keys to take
the self-care measures prescribed by the CDC. This leaves him unsafe, and could
result in an effective life sentence for his offense. Granting early release or home
18

Case l:ll-cr-00079-HSO-JMR Document 104 Filed 06/19/20 Page 19 of 20

TOttfiftemenLwould allow him to protect himself and help contribute to the national
effort to control the spread of COVID-19. While incarcerated;

it

he has accepted the seriousness of his offense, and committed himself to being a
responsible member of society. Because of the extraordinary circumstances
presented by the combination of the global COVID-19 pandemic and his increased
vulnerability from his serious medical conditions, he respectfully asks the Court to
grant his motion and order his early release, or to allow the remainder of his
sentence to be served in home confinement. *
WHEREFORE, Defendant Bobby Earl Keys asks this Court to grant his
Motion for Compassionate Release under 18 U.S.C. § 3582(c)(1)(A).
Respectfully submitted June 19,2020.
Bobby Earl Keys,
Defendant
by:

s/ Joshua T. Kadel
Joshua Kadel (MB # 105825)
Research & Writing Specialist
Southern District of Mississippi
2510 14th Street, Suite 902
Gulfport, MS 39501
Phone: (228) 865-1202
Fax: (228)867-1907
Email: josh_kadel@fd.org
Attorney for Defendant

19

Additional material
from this filing is
available in the
Clerk's Office.

